   May 20, 2005




Infrastructure and Environment

Defense Technology Security
Administration Data Call Submissions
and Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-066)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DA&M                  Director, Administration and Management
DoD OIG               Department of Defense Office of Inspector General
DTSA                  Defense Technology Security Administration
DWO                   Defense-Wide Organizations
HSA                   Headquarters and Support Activities
ICP                   Internal Control Plan
JCSG                  Joint Cross Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
                            INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 222024704




                                                                          May 20,2005
MEMORANDUM FOR DIRECTOR, DEFENSE TECHNOLOGY SECURITY
ADrnSTRATION
                                                          ..
                rt on Deftme Technology Security Admrmstration Data Call
            3%   'ssions and Internal Control Processes for Base Realignment and
            Clos~re2005 W  t NO.D-2005-066)
                           r

        We are providing this report fpr information and use. No written response to this
report was requjred aud none was m i v e d . Therebre, we are publishing this report in
final fonn
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Canos at (703)604-9217(DSN 664-921nor Ms. Lois J. W o M at
(703)604-9270@SN 664-~70):S a ~ ~ ~ e r ;Bdbi rxthe r b r t distribution The team
membera are listed inside the tack cover.


                               By direction of the Deputy Inspector General for Auditing:




                                 Assistant Inspector General
                                   Contract h4aoagement
               Department of Defense Office of Inspector General
Report No. D-2005-066                                                    May 20, 2005
   (Project No. D2004-D000CG-0111.000)

       Defense Technology Security Administration Data Call
          Submissions and Internal Control Processes for
                Base Realignment and Closure 2005

                             Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, Defense Technology Security Administration members, and anyone interested
in the Base Realignment and Closure (BRAC) process should read this report. The report
discusses the validity and integrity of the data provided by the Defense Technology
Security Administration for BRAC 2005.
Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, which states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 data collection process was divided into the following data calls:
capacity analysis, supplemental capacity, military value, Cost of Base Realignment
Actions, Joint Process Action Team Criterion Number 7, and scenario specific. The
supplemental capacity, military value, Cost of Base Realignment Actions, and Joint
Process Action Team Criterion Number 7 data calls were collectively known as the
second data call. Subsequent to our review, the Joint Process Action Team group may
have requested clarification of some responses; we did not review any changed
responses.

The Defense Technology Security Administration is one of the 11 Defense-Wide
Organizations. The Defense Technology Security Administration, located in Alexandria,
Virginia, develops and implements DoD technology security policies on international
transfers and prepares for future threats through activities and programs that control,
monitor, and prevent the transfer of defense-related goods, services, and technologies.
The Defense Technology Security Administration provided responses to the capacity
analysis data call, the second data call, and one scenario specific data call as of
January 27, 2005. We issued one site memorandum to the Director of the Defense
Technology Security Administration on May 18, 2004, summarizing the audit results of
the capacity analysis data call, and one site memorandum to the Director of the Defense
Technology Security Administration on October 20, 2004, summarizing the results of the
second data call. This report summarizes issues related to the entire Defense Technology
Security Administration BRAC 2005 process as of January 27, 2005.

Results. We evaluated the validity, integrity, and supporting documentation of the
Defense Technology Security Administration BRAC 2005 data and compliance with the
Office of the Secretary of Defense and the Defense-Wide Organizations internal control
plans. Defense Technology Security Administration responses to the BRAC 2005 data
calls were generally accurate, supported, and reasonable after corrections were made.
Defense Technology Security Administration responses to the Headquarters and Support
Activities Joint Cross Service Group scenario data call were also accurate and adequately
supported. However, the Defense Technology Security Administration provided
inadequate supporting documentation for three responses to the capacity analysis data
call and one response to the second data call. We were unable to determine the
materiality of the inadequately supported responses.

The Defense Technology Security Administration data collection process generally
complied with applicable internal control plans. In addition, the Defense-Wide
Organizations internal control plan incorporated and supplemented the Office of the
Secretary of Defense internal control plan. However, the Defense Technology Security
Administration had three internal control plan noncompliances during the capacity
analysis data call. The Defense Technology Security Administration did not maintain
logs documenting when work was performed on the master record or when BRAC
documentation was copied, and the supporting documentation for data call responses was
not maintained with the BRAC 2005 questions. We determined that the three internal
control plan noncompliances were not material and should not affect the integrity of the
Defense Technology Security Administration data provided for use in BRAC 2005
analysis.

Management Comments. We provided a draft of this report on May 3, 2005. No
written response to this report was required and none was received. Therefore, we are
providing this report in final form.




                                            ii
Table of Contents
Executive Summary                                                      i

Background                                                             1

Objectives                                                             3

Finding
     Defense Technology Security Administration BRAC 2005 Data Call
       Submissions and Internal Control Processes                      4

Appendixes
     A. Scope and Methodology                                          8
          Management Control Program Review                           10
          Prior Coverage                                              10
     B. Report Distribution                                           11
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    deadline for the Secretary of Defense to submit recommendations to the
    independent Commission was May 16, 2005.
    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross Service Groups (JCSG): Education and Training, Headquarters
    Support Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs addressed issues that affect common business-
    oriented support functions, examined functions in the context of facilities, and
    developed realignment and closure recommendations based on force structure
    plans of the Armed Forces and on selection criteria. Each JCSG developed data
    call questions to obtain information to analyze the issues.

    BRAC 2005 Data Calls. The “Transformation Through Base Realignment and
    Closure (BRAC 2005) Policy Memorandum One—Policy, Responsibilities,
    Procedures,” (Policy Memorandum One) April 16, 2003, issued by the Under
    Secretary of Defense for Acquisition, Technology, and Logistics establishes the
    BRAC 2005 process for the United States and its territories. The BRAC 2005
    data collection process was divided into the following data calls: capacity
    analysis, supplemental capacity, military value, Cost of Base Realignment
    Actions (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7) and
    scenario specific. The first data call addressed capacity analysis issues. The
    supplemental capacity, military value, COBRA, and JPAT 7 data calls were
    collectively known as the second data call. The Services, Defense agencies, and
    Defense-Wide Organizations (DWO) used either automated data collection tools
    or a manual process to collect data call responses. Each data call had a specific
    purpose as follows.

           •   The capacity analysis data call requested information on infrastructure,
               current workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call requested data to clarify
               inconsistent data gathered in the initial capacity analysis data call.

           •   The military value data call requested information on mission
               requirements, land and facilities, mobilization and contingency, and
               cost and personnel.




                                          1
                    •    The COBRA data call requested information to develop costs, savings,
                         and payback (formerly known as return on investments) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call requested data to assess the community’s
                         abilities to support additional forces, missions, and personnel
                         associated with individual scenarios. 1

                    •    The scenario specific data call requested data related to one or more
                         potential realignment or closure actions identified for formal analysis
                         by either a JCSG or a Military Department.

           DWOs. DWOs is a collective term for the 11 Defense Organizations. 2 The
           Defense Technology Security Administration (DTSA) is one of the 11 DWOs.
           The OSD Director, Administration and Management (DA&M) led the DWO
           BRAC 2005 process and was responsible for collecting and submitting BRAC
           data for all of the DWOs. OSD DA&M was the primary data repository for all
           DWO data collections and requests, and assembled and forwarded BRAC-related
           data to the OSD BRAC Office and the JCSGs.

           Internal Control Plans. OSD distributed the OSD internal control plan (ICP)
           under Policy Memorandum One. The OSD ICP is the ICP for all JCSGs and
           guided the DoD Component ICPs. Before the BRAC data calls were released, the
           OSD ICP required the Services, Defense agencies, and DWOs to prepare ICPs
           that supplement the OSD ICP. OSD DA&M prepared an overall DWO ICP,
           “Defense-Wide Organizations Internal Control Plan for the 2005 Base
           Realignment and Closure Process,” on January 15, 2004. The overall DWO ICP
           and Appendixes L and M applied to the 11 DWOs. Each DWO was responsible
           for preparing an organization-specific appendix to supplement the overall DWO
           ICP; Appendix B applied to DTSA. The DWO ICP was updated on August 2,
           2004. DTSA used the January 15, 2004, DWO ICP for the capacity analysis data
           call and used the updated August 2, 2004, DWO ICP for the second and scenario
           specific data calls. DTSA used a manual process to collect data for the capacity
           analysis data call; and used the Data Gathering Tool, a modified Microsoft Access
           tool for those not using an automated data collection tool, to collect data for the
           second data call.

           Department of Defense Office of Inspector General Responsibility. Policy
           Memorandum One requires the Department of Defense Office of Inspector


1
    A scenario is a description of one or more potential closure or realignment actions identified for formal
    analysis by either JCSG or Military Department.
2
    The 11 DWOs are American Forces Information Service, Defense Human Resources Activity, Defense
    Technology Security Administration, DoD Education Activity, Defense Prisoner of War/Missing
    Personnel Office, Joint Chiefs of Staff, Office of Economic Adjustment, DoD Office of Inspector
    General, OSD, TRICARE Management Activity, and Washington Headquarters Services.




                                                        2
     General (DoD OIG) to provide ICP development and implementation advice,
     review the accuracy of BRAC data, and evaluate the data certification processes.
     In addition, the memorandum requires DoD OIG personnel to assist the JCSGs
     and DoD Components as needed. We issued one site memorandum to the
     Director, DTSA on May 18, 2004, summarizing the audit results of the capacity
     analysis data call, and one site memorandum to the Director, DTSA on
     October 20, 2004, summarizing the results of the second data call. This report
     summarizes DoD OIG efforts regarding the DTSA BRAC 2005 process.

     DTSA. DTSA is located in Alexandria, Virginia. DTSA develops and
     implements DoD technology security policies on international transfers and
     prepares for future threats through activities and programs that control, monitor,
     and prevent the transfer of defense-related goods, services, and technologies.

Objectives
     The overall objective of the audit was to evaluate the validity, integrity, and
     supporting documentation of data that DTSA collected and submitted for the
     BRAC 2005 process. In addition, we evaluated whether DTSA complied with the
     OSD and DWO ICPs. This report is one in a series on data call submissions and
     internal control processes for BRAC 2005. See Appendix A for a discussion of
     the scope and methodology and for prior coverage related to the objectives.




                                          3
           Defense Technology Security
           Administration BRAC 2005 Data Call
           Submissions and Internal Control
           Processes
           DTSA responses to the BRAC 2005 data calls were generally accurate,
           supported, and reasonable after corrections were made. However, DTSA
           had three partially supported responses to the capacity analysis data call
           and one inadequately supported response to the second data call. The
           DTSA data collection process generally complied with applicable ICPs.
           However, DTSA had three ICP noncompliances during the capacity
           analysis data call. We were unable to determine the validity of the three
           partially supported responses to the capacity analysis data call and the
           inadequately supported response to the second data call, and we could not
           determine the materiality of those responses used in the DTSA BRAC
           2005 analysis. However, we determined the three ICP noncompliances
           were not material and should not affect the integrity of the data that DTSA
           provided for use in BRAC 2005 analysis.


DTSA BRAC 2005 Data Call Submissions
    The responses DTSA provided to the BRAC 2005 data calls were generally
    supported, accurate, and reasonable after corrections were made. DTSA provided
    either an answer or a “Not Applicable” (N/A) response to the capacity analysis
    data call, second data call, and scenario specific data call questions. To ensure
    accuracy, we compared DTSA answers with supporting documentation and
    reviewed the N/A responses for reasonableness. We did not verify that the DTSA
    responses were entered into the OSD Database.

    Capacity Analysis Data Call. DTSA responses to the capacity analysis data call
    were generally accurate, supported, and reasonable. OSD DA&M directed DTSA
    to answer 75 of 752 capacity analysis data call questions identified as applicable
    to DWOs by the HSA JCSG. OSD DA&M also directed the DWOs to review the
    remainder of the questions to determine if any were applicable. DTSA reviewed
    the remainder of the questions and responded to two additional questions. As a
    result, DTSA responded to 77 capacity analysis data call questions either with an
    answer or an N/A response. DTSA provided N/A responses to 74 questions and
    provided answers to 3 questions. We determined that the 74 N/A responses were
    reasonable, and DTSA answers to the three questions (question numbers 319, 461,




                                        4
           and 462) were partially supported. Specifically, DTSA provided an internally
           generated organization chart as support for the answers to:

                  •   one part of question number 319, requesting the number of current
                      contractor subscribers;

                  •   one part of question number 461, requesting civilian and military
                      personnel specially assigned to the Pentagon; and

                  •   one part of question number 462, requesting the number of on-board
                      contractor personnel.

           The organization chart was an inadequate source documentation for validating the
           accuracy of the answers, and we could not determine the materiality of the
           partially supported answers used for the BRAC 2005 analysis.

           Second Data Call. DTSA responses to the second data call were generally
           accurate, supported, and reasonable after corrections were made. OSD DA&M
           directed DTSA to respond to 48 of 83 second data call questions identified as
           applicable to the DWOs. OSD DA&M directed DTSA to review the remainder of
           the 83 questions to determine whether any additional questions were applicable to
           DTSA. DTSA reviewed the remainder of the questions and identified
           23 additional questions. As a result, DTSA responded to 71 second data call
           questions. 3 Specifically, DTSA responded to 36 HSA JCSG military value
           questions, 9 HSA JCSG supplemental capacity questions, 18 JPAT 7 questions,
           and 8 COBRA questions. DTSA provided N/A responses to 43 questions and
           answers to 28 questions.

           We concluded that DTSA answers were accurate and adequately supported,
           except for the answer to question number 1407, which did not have adequate
           supporting documentation. Specifically, question 1407 addressed the number of
           accredited technical schools, colleges, and universities. The supporting
           documentation was inadequate for validating whether the schools were accredited,
           and we could not determine the affect of that answer used for the BRAC 2005
           analysis. In addition, we determined that DTSA N/A responses were reasonable.
           We did not make a determination whether answers to HSA JCSG military value
           question numbers 1907 4 and 1908 5 were supported, complete, and accurate
           because the support consisted of electronic Lotus Notes calendars, which could
           not be validated. Subsequent to our review, the JPAT 7 group sent requests for

3
    For the second data call, HSA JCSG targeted DTSA with supplemental capacity and military value
    questions. Additionally, COBRA and JPAT 7 questions were targeted to stand-alone or host activities
    including leased facilities; DTSA headquarters is located in a leased facility.
4
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
5
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.




                                                       5
     clarification on some responses to some Defense agencies and DWOs, which may
     have resulted in changes to original responses; we did not review those responses.
     Therefore, the issues related to JPAT 7 question number 1407 may no longer be
     valid.

     Scenario Specific Data Call. DTSA responses to the scenario specific data call
     were generally accurate, supported, and reasonable after corrections were made.
     DTSA received one HSA JCSG scenario data call, scenario number HSA-0053,
     as of January 27, 2005. We evaluated the responses and supporting
     documentation at DTSA.

Internal Control Processes
     DTSA generally complied with applicable ICPs and properly incorporated and
     supplemented the OSD ICP. We reviewed DTSA compliance with the OSD and
     DWO ICPs to determine whether the DTSA data gathering process complied with
     both ICPs during the capacity analysis data call, second data call, and scenario
     specific data call. Specifically, we reviewed whether DTSA personnel completed
     nondisclosure agreements and properly collected, marked, safeguarded, and
     maintained BRAC data.

     Compliance With ICPs. DTSA generally complied with applicable ICPs during
     the data calls; however, we identified three noncompliances during the capacity
     analysis data call. Specifically, DTSA did not maintain a log to document trusted
     agent work on the BRAC 2005 master record, did not maintain a log to document
     when BRAC 2005 documents were copied, and did not maintain and safeguard
     the supporting documentation for BRAC 2005 responses with the questions.

     DTSA provided generally accurate, supported, and reasonable responses to the
     data call questions; therefore, we determined the ICP noncompliances were not
     material to the BRAC 2005 process and should not affect the integrity of the
     DTSA data for use in the BRAC 2005 analysis.

     Completeness of ICPs. The DWO ICP properly incorporated and supplemented
     OSD ICP requirements. OSD DA&M prepared the DWO ICP, which further
     refined the requirements established in the OSD ICP and provided guidance on
     DWO responsibilities. The DWO ICP provided a consistent set of management
     controls to ensure the accuracy, completeness, and integrity of BRAC data and to
     limit the possibility of premature disclosure of BRAC information. The DWO
     ICP provided documentation requirements, review procedures, and certification
     procedures that applied to all DWOs. Appendix B to the DWO ICP contained
     DTSA-specific information on document storage procedures, control measures,
     certifying official responsibilities, access requirements, and physical
     transportation and electronic transmission.




                                         6
Conclusion
    DTSA reported BRAC 2005 data that were generally accurate, supported, and
    reasonable after corrections were made. However, DTSA responses to the
    capacity analysis data call question numbers 319, 461, and 462 were partially
    supported, and JPAT 7 question number 1407 was not adequately supported. The
    DTSA data collection process generally complied with applicable ICPs; however,
    DTSA had three noncompliances during the capacity analysis data call. We
    discussed the results of the data call submissions and ICP reviews with DTSA
    management. DTSA management concurred with our findings and corrected the
    ICP noncompliances for the second data call. We were unable to determine the
    materiality of the partially supported responses to the capacity analysis data call.
    However, we determined the inadequately supported response to the second data
    call and the three internal control noncompliances were not material and should
    not impact the reliability and integrity of the data that DTSA provided for use in
    BRAC 2005 analysis.




                                         7
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DTSA
   BRAC 2005 data. The evaluation included comparing responses with supporting
   documentation and reviewing N/A responses to determine whether they were
   reasonable. Questions had either an answer or an N/A response; an N/A response
   was provided when DTSA determined that the question did not apply to DTSA.
   We reviewed documentation dated from October 2002 through January 2005. In
   addition, we interviewed the DTSA personnel responsible for answering,
   reviewing, preparing, and certifying the responses to the data call questions.

   We evaluated the data collection process to determine whether DTSA followed
   OSD ICP guidance to develop an ICP, maintained adequate documentation to
   support the data collection process, and established adequate internal control
   procedures to ensure that data call responses were complete and accurate. We
   ensured that the DWO ICP incorporated and supplemented the requirements of
   the OSD ICP and reviewed DTSA compliance with the ICPs. We evaluated
   DTSA internal control procedures, to include reviewing the completion of
   nondisclosure agreements and the collection, marking, and safeguarding, and
   maintenance of BRAC data. We did not verify that DTSA responses were entered
   into the OSD Database.

   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed DWO trusted agents to answer 75 of 752 capacity analysis data call
   questions identified as applicable to DWOs by HSA JCSG. The OSD DA&M
   also directed DWO trusted agents to review the rest of the questions to determine
   if any were applicable. DTSA reviewed the remaining questions and responded
   to two additional questions. As a result, DTSA responded to a total of
   77 questions. We did not validate the OSD DA&M or DTSA selection process of
   the questions not selected.

          •   We evaluated the DTSA responses to 77 capacity analysis data call
              questions.

          •   We reviewed N/A responses for the following 74 questions to
              determine reasonableness: 310, 311, 313 through 318, 320 through
              329, 347 through 388, 393, 446 through 448, 464, 466, 468, 469, 471,
              478, 480 through 482, and 582.

          •   We reviewed answers to questions 319, 461, and 462 for accuracy and
              adequate support.

   We issued a site memorandum on May 18, 2004, that summarized the results of
   our review.

   Second Data Call. DTSA received guidance from OSD DA&M on June 18,
   2004; June 23, 2004; and July 22, 2004, directing DTSA to respond to 48 of
   83 second data call questions identified as applicable to the DWOs. OSD DA&M
   directed DTSA to review the remainder of the 83 questions to determine whether


                                       8
          any remaining questions were applicable to DTSA. DTSA reviewed the
          remainder of the questions and identified 23 additional questions. As a result,
          DTSA responded to 71 second data call questions. Specifically, DTSA responded
          to 36 HSA JCSG military value questions, 9 HSA JCSG supplemental capacity
          questions, 8 COBRA questions, and 18 JPAT 7 questions either with an answer or
          an N/A response. DTSA responded to 28 data call questions with an answer and
          43 questions as N/A. The following table lists the responses that we reviewed.

                                   Second Data Call Questions Reviewed

                                                           Question Number
          Type of Question                 Answered                        Not Applicable
          HSA JCSG                1907, 1908, and 1911              1900, 1904-1906, 1909, 1910,
          Military Value                                            1912-1927, and 1947-1957
          HSA JCSG                4099-4103                         4079-4081 and 4096
          Supplemental
          Capacity
          COBRA                   1501 and 1505                       1500, 1502-1504, 1506, and
                                                                      1507
          JPAT 7                  1400-1417 ∗                         None


          We did not make a determination on whether the responses to HSA JCSG military
          value question numbers 1907 and 1908 were accurate and supported because
          supporting documentation consisted of electronic Lotus Notes calendars, which
          could not be validated. Subsequent to our review, the JPAT 7 group sent requests
          for clarification on some responses to some Defense agencies and DWOs, which
          may have resulted in changes to original responses; we did not review those
          responses.

          Scenario Specific Data Call. As of January 27, 2005, DTSA received and
          answered one HSA JCSG scenario data call, scenario number HSA-0053. We
          reviewed DTSA responses to the HSA JCSG scenario data call for reasonableness
          and support.

          We performed this audit from February 2004 through April 2005 in accordance
          with generally accepted government auditing standards.

          Use of Computer-Processed Data. We did not test the accuracy of the
          computer-processed data used to support answers to data call questions because of
          time constraints. Potential inaccuracies in the data could impact the results.
          However, the BRAC data were certified as accurate and complete to the best of
          the certifier’s knowledge and belief. We did not review the data collection tools
          used.

          Government Accountability Office High-Risk Areas. The Government
          Accountability Office has identified several high-risk areas in DoD. This report

∗
    The JPAT 7 group replaced JPAT 7 questions 1418 and 1419 with 1420 and 1421; however, the
    replacement questions were not available during our review.



                                                   9
    provides coverage of the Federal Real Property and DoD Support Infrastructure
    Management high-risk areas.

Management Control Program Review
    We evaluated DTSA internal control procedures for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    that DTSA used to develop, submit, and document its data call responses. In
    addition, we reviewed the controls implemented to safeguard the premature
    disclosure of DTSA BRAC data before responses were forwarded to the OSD
    BRAC Office. Internal control procedures were adequate as they applied to the
    audit objective (see finding for specific details). We did not review the DTSA
    management control program because its provisions were not deemed applicable
    to the one-time data collection process.

Prior Coverage
    During the last 5 years, the DoD Inspector General has issued two memorandums
    pertaining to DTSA BRAC 2005 data call submission and internal control
    processes.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission From
    Defense Technology Security Administration for Base Realignment and Closure
    2005,” October 20, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Defense Technology Security Administration for Base Realignment and
    Closure 2005,” May 18, 2004




                                       10
Appendix B. Report Distribution
Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)
Director, Defense Technology Security Administration

Non-Defense Federal Organization
Government Accountability Office




                                          11
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Contract Management prepared this report. Personnel of the Department of
   Defense Office of Inspector General who contributed to the report are listed
   below.

   Richard B. Jolliffe
   Deborah L. Carros
   Deborah L. Culp
   Lois J. Wozniak
   David L. Spargo
   Peter I. Lee
   Karen L. Jones
   Gloria A. Young
   Jacqueline J. Vos
   Brian R. McNamara
   Chad J. Evans
   Meredith H. Johnson




                                     12
